HHS/OIG, Audit -"Seven StatesMedicaid Claims for 21- to 64-Year-Old Residents of Institutions for Mental Diseases Who Were Temporarily Released to Acute Care Hospitals,"(A-02-03-01002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Seven States Medicaid Claims for 21- to 64-Year-Old Residents of Institutions
for Mental Diseases Who Were Temporarily Released to Acute Care Hospitals," (A-02-03-01002)
June 9, 2004
Complete
Text of Report is available in PDF format (236 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The common objective of the audits in seven States was to determine if controls were in place to preclude States, as required
by Federal law and regulations, from claiming Federal Medicaid funds when 21- to 64-year-old residents of institutions
for mental diseases (IMDs) were temporarily released to acute care hospitals for inpatient medical treatment.  In
general we found the States had no controls or ineffective controls.  The seven States improperly claimed a total
of $21.1 million in Federal Medicaid funds during various audit periods.  In individual reports to the States we recommended
financial adjustments and procedural improvements.  In this rollup report to the Centers of Medicare and Medicaid
Services (CMS) we recommended that CMS (1) reinforce to States that Federal Medicaid funds may not be claimed for 21- to
64-year-old IMD residents, including those temporarily released to acute care hospitals for inpatient medical treatment,
(2) instruct States to develop and implement controls, where cost effective, to preclude claiming Federal funding in such
instances, and (3) advise States not included in our review of the audit findings and encourage them to review their controls
to prevent improper claims.  The CMS concurred with our recommendations.